HHS/OIG, Audit -"Seven States' Medicaid Claims for Medical and Ancillary Services Made on Behalf of of 21- to
64-Year-Old Residents of State-Operated Institutions for Mental Diseases,"(A-02-03-01030)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Seven States' Medicaid Claims for Medical and Ancillary Services Made on Behalf of of 21- to 64-Year-Old Residents
of State-Operated Institutions for Mental Diseases," (A-02-03-01030)
July 14, 2004
Complete
Text of Report is available in PDF format (247 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our seven-State review of Medicaid claims for medical and ancillary services
made on behalf of 21- to 64-year-old residents of State-operated institutions for mental diseases (IMD).  A common
objective of these audits was to determine if controls were in place to preclude States from claiming Federal Medicaid
funds for medical and ancillary services (except inpatient acute care hospital services) provided to 21- to 64-year-old
residents of State-operated IMDs.  We found that three States (Maryland, Texas, and Virginia) had no controls to prevent
Federal funding from being claimed, one State (New Jersey) had ineffective controls, two States (New York and Florida)
had generally adequate controls, and one State (California) had efficient controls and made no improper claims.  The
remaining six of the seven States improperly claimed a total of $2,466,190 in Federal Medicaid funds during various audit
periods.